           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF NEW YORK
     FOR THE FISCAL YEAR ENDED
           MARCH 31, 2008

       March 2010   A-77-10-00004




 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      March 12, 2010                                                                 Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of New York for the Fiscal Year
           Ended March 31, 2008 (A-77-10-00004)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of New York for the Fiscal Year ended March 31, 2008. Our objective
           was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           The accounting firm of Toski, Schaefer and Company, P.C. performed the audit. We
           have not received the results of the desk review conducted by the Department of Health
           and Human Services (HHS). We will notify you when the results are received if HHS
           determines the audit did not meet Federal requirements. In reporting the results of the
           single audit, we relied entirely on the internal control and compliance work performed by
           the accounting firm of Toski, Schaefer and Company, P.C. and the reviews performed
           by HHS. We conducted our review in accordance with the Quality Standards for
           Inspections issued by the President’s Council on Integrity and Efficiency. 1

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The New York Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The Office of
           Temporary and Disability Assistance (OTDA) is the New York DDS’ parent agency.

           1
             In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
           the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008,
           Pub. L. No. 110-409 §5 U.S.C. App. 3 §11.
Page 2 – Candace Skurnik


The single audit reported that indirect costs were charged to various Federal agencies,
including SSA, based on cost allocation plan (CAP) methodologies that are pending
approval by HHS’ Division of Cost Allocation (Attachment A, pages 1 through 5). We
recommend that, upon HHS’ approval of the CAP, SSA work with OTDA to ensure that
indirect costs charged to the New York DDS during State Fiscal Year 2008 were in
accordance with the CAP’s approved methodologies.

The single audit also reported that:

    1. OTDA did not have a plan in place for periodic testing of systems data recovery
       in the event of an interruption, and it had not performed a test to ensure a
       complete and error-free recovery of systems data (Attachment A, pages 6
       through 9).

    2. OTDA had insufficient standards for the documentation of critical systems
       applications (Attachment A, pages 10 through 13).

    3. Software developers inappropriately had the ability to update software in the
       production environment (Attachment A, pages 14 through 17).

    4. Contracts reimbursed with Federal funds did not identify the required Federal
       award information (Attachment A, pages 18 through 21).

We made recommendations to SSA in a prior report for corrective action on these four
findings. 2 We confirmed that SSA had taken appropriate corrective actions to address
these findings. Therefore, we will not repeat the recommendations in this report.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                              Patrick P. O’Carroll, Jr.

Attachments




2
 SSA OIG, Management Advisory Report, Single Audit of the State of New York for the Fiscal Year
Ended March 31, 2007 (A-77-09-00008), March 2009.
Attachment A
Page 1 of 21
Attachment A
Page 2 of 21
Attachment A
Page 3 of 21
Attachment A
Page 4 of 21
Attachment A
Page 5 of 21
Attachment A
Page 6 of 21
Attachment A
Page 7 of 21
Attachment A
Page 8 of 21
Attachment A
Page 9 of 21
Attachment A
Page 10 of 21
Attachment A
Page 11 of 21
Attachment A
Page 12 of 21
Attachment A
Page 13 of 21
Attachment A
Page 14 of 21
Attachment A
Page 15 of 21
Attachment A
Page 16 of 21
Attachment A
Page 17 of 21
Attachment A
Page 18 of 21
Attachment A
Page 19 of 21
Attachment A
Page 20 of 21
Attachment A
Page 21 of 21
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
